         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report




       EPA’s Efforts to Demonstrate
       Grant Results Mirror
       Nongovernmental Organizations’
       Practices
       Report No. 2005-P-00016

       June 2, 2005
Report Contributors:	              Erin Barnes-Weaver
                                   Katie Butler
                                   Ben Webster




Abbreviations

EPA          Environmental Protection Agency

GAO          Government Accountability Office

GPRA         Government Performance and Results Act

OARM         Office of Administration and Resources Management

OIG          Office of Inspector General
                       U.S. Environmental Protection Agency                                               2005-P-00016

                       Office of Inspector General                                                         June 2, 2005





                       At a Glance 

                                                                          Catalyst for Improving the Environment


Why We Did This Review            EPA’s Efforts to Demonstrate Grant Results Mirror
                                  Nongovernmental Organizations’ Practices
In 2005, EPA’s Office of
Administration and Resources       What We Found
Management introduced new
policies to improve EPA’s         EPA recently took steps to improve its ability to demonstrate results from grants.
ability to demonstrate grant      In 2005, EPA instituted Results and Pre-Award policies intended to (1) ensure
results. We sought to             clear links between grant results and EPA goals, and (2) enhance oversight of
determine how these policies      grantee qualifications and performance. We found the practices required by these
compare with techniques used      policies generally consistent with practices of leading nongovernmental
by leading nongovernmental        organizations that fund environmental projects and emphasize grantee
organizations.                    performance measurement. We identified nongovernmental organization
                                  techniques that EPA could consider to augment its policies.
Background

EPA historically faced             What We Suggest
challenges demonstrating
grant program impacts on          We suggest that EPA:
human health and the
environment. As recently as        	   Track implementation of the Results and Pre-Award Policies to ensure that
2004, Congress, the                     EPA staff and grantees follow the policies and better demonstrate grant results.
Government Accountability
Office, and the EPA Office of      	   Adopt the technique of providing sample logic models that lead grant
Inspector General expressed             applicants toward established environmental and human health improvement
concerns about the Agency’s             goals.
ability to demonstrate the
results of the $4 billion per      	   Consider providing an online resource for grantees that provides training,
year it grants to States,               examples, and a question and answer bulletin board, as recommended by the
localities, tribes, nonprofits,         Office of Water. This one-stop resource could provide grantees with extensive
and other organizations.                information about how to meet results reporting requirements.

For further information,           	   In order to ensure that grant dollars fund projects with a high chance of
contact our Office of                   success, EPA could include grantees’ past performance as a ranking criterion
Congressional and Public                when competing discretionary grants and selecting successful applicants.
Liaison at (202) 566-2391.

To view the full report,           	   Conduct a retrospective evaluation of a sample of EPA grant results to provide
click on the following link:            the Agency with valuable information about how grant dollars contributed in
www.epa.gov/oig/reports/2005/           the past to environmental and human health improvements.
20050602-2005-P-00016.pdf
                                  EPA agreed with our suggestions, but recommended conducting a retrospective
                                  evaluation in 3 or 4 years, once the new results policy has been implemented,
                                  rather than engaging in a retrospective evaluation now.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                      OFFICE OF 

                                                                                 INSPECTOR GENERAL





                                          June 2, 2005

MEMORANDUM

SUBJECT:              Evaluation Report: EPA’s Efforts to Demonstrate Grant Results Mirror
                      Nongovernmental Organizations’ Practices
                      Report No. 2005-P-00016

FROM:                 Jeffrey Harris /s/
                      Director, Cross Media Issues

TO:                   Luis Luna
                      Assistant Administrator
                      Office of Administration and Resources Management (OARM)

This memorandum transmits our final evaluation report titled EPA’s Efforts to Demonstrate
Grant Results Mirror Nongovernmental Organizations’ Practices conducted by the Office of
Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA). EPA agreed with
the suggestions contained in the draft report, and the OIG did not substantially change the final
report. Therefore, this transmittal memorandum represents the final close-out for this evaluation.
We have no objection to the further release of this report to the public. For your convenience,
this report will be available at http://www.epa.gov/oig.

We appreciate the cooperation and assistance provided by your staff in completing this work. If
you or your staff has any questions regarding this report, please contact me at 202-566-0831 or
Erin Barnes-Weaver at 303-312-6871.

Attachment

cc: 	   Sandy Womack, Audit Followup Coordinator, OARM
        David O’Connor, Deputy Administrator, OARM
        Howard Corcoran, Director, Office of Grants and Debarment, OARM
        Mike Weckesser, Associate Director, Resource Management Staff, Office of Water
                                      Table of Contents 

At a Glance

 Introduction ..................................................................................................................         1

    Grant-Making at EPA .....................................................................................................            1


    Congressional Testimony on EPA Grant Results.......................................................                                  2


    EPA Took Actions to Better Demonstrate Results .....................................................                                 3


    Purpose of This Evaluation...........................................................................................                4


    Scope and Methodology................................................................................................                4




 Comparison of EPA and Nongovernmental
 Organization Practices ...........................................................................................                      5

    Testimony Response .....................................................................................................             5


    Additional Considerations ............................................................................................               9


    Conclusions....................................................................................................................     10     


    Summary of Suggestions and EPA Response............................................................                                 10 


 Appendices ...................................................................................................................         12

    A       Process Flow for Competitive Grants.. ...............................................................                       12 


    B       Agency Response to Draft Report.......................................................................                      13 


    C       Distribution ............................................................................................................   16





                                                                     i
                                      Introduction

    The United States Environmental Protection Agency (EPA) historically faced challenges
    demonstrating the impact its grant programs make on improving environmental and
    human health. Guided by a series of recommendations from recent congressional
    testimony, we compared EPA grant management practices to those used by a sample of
    nongovernmental organizations. In many instances, EPA demonstrates practices
    currently used by nongovernmental organizations. However, the nongovernmental
    organizations we assessed use additional techniques that EPA could consider to better
    measure grants effectiveness.

Grant-Making at EPA

    EPA awards over one-half of its annual budget in grants to its State, local, tribal,
    educational, and nonprofit partners. From fiscal years 1997 through 2003, EPA awarded
    an average of $4,165,853,900 per year to governments, educational institutions, and
    nonprofit organizations so that they could help EPA achieve its goals. As Figure 1
    demonstrates, EPA awarded most of the funds (88 percent) to State, local, and tribal
    governments. EPA awarded 11 percent of its grant funds to educational institutions and
    nonprofit organizations.
                                       Figure 1: 

                   Distribution of Awarded Funds by Recipient Type 

                    (Average Per Year for Fiscal Years 1997 – 2003) 

                                      Nonprofits
                                        7%
                             Educational 

                             Institutions          Other

                                 4%                 1%

                               Tribes

                                2%

                  Local Governments
                         9%




                                                             State Governments
                                                                    77%


                                               Source: EPA




                                                   1

         EPA divides its grant management responsibilities between (1) program offices that
         manage grant agreements and outcomes; and (2) the Office of Administration and
         Resources Management (OARM), which manages administrative requirements associated
         with EPA’s grant programs. The table below depicts major responsibilities of program
         offices and OARM with respect to grant management.

          Grant Management Responsibilities at EPA

          Program Offices              Oversees grant management and implementation, including:
                                          Writing requests for proposals;
                                          Agreeing with grantees on statements of work;
                                          Making determinations on programmatic special conditions;
                                          Reviewing work plans (and noting environmental results);
                                          Determining how closely EPA will work with recipients; and
                                          Reviewing grantees’ interim and final technical reports.



          OARM                         Manages administrative requirements, including:
                                          Awarding grant funds to grantees chosen by program offices;
                                          Writing national policy related to grant administration; and
                                          Overseeing grantees and program offices to ensure grantees and
                                           EPA staff follow orders, guidance, and procedures.


         See Appendix A for a grant process flow chart describing how EPA issues competitive
         grants.

Congressional Testimony on EPA Grant Results
         Testimony before the United States House of Representatives on July 20, 2004,1
         indicated that EPA faced challenges managing grants and, in particular, demonstrating
         results from grants. During its testimony, the EPA Office of Inspector General (OIG)
         testified that EPA project officers identified neither expected results nor a means of
         measuring whether grant documents demonstrated results, and also did not include an
         environmental performance measurement component when establishing new assistance
         programs. The Government Accountability Office (GAO) testified that EPA did not
         ensure that it linked awarded grants with outcomes in grant work plans. GAO reviewed
         seven grant programs and found that an average of 69 percent of work plans did not


1

    (1)	 Statement of John B. Stephenson, Director, Natural Resources and the Environment, Government Accountability Office, before the
         Subcommittee on Water Resources and Environment, Committee on Transportation and Infrastructure, U.S. House of Representatives,
         Grants Management: EPA Continues to Have Problems Linking Grants to Environmental Results.
    (2)	 Statement of Nikki L. Tinsley, Inspector General, EPA, before the Subcommittee on Water Resources and Environment, Committee
         on Transportation and Infrastructure, U.S. House of Representatives.
    (3)	 Statement of David J. O’Connor, Acting Assistant Administrator for Administration and Resources Management, EPA, before the
         Subcommittee on Water Resources and Environment, Committee on Transportation and Infrastructure, U.S. House of Representatives.
    (4)	 Testimony of A. Alan Mohgissi, President, Institute of Regulatory Science, before the Subcommittee on Water Resources and
         Environment, Committee on Transportation and Infrastructure, U.S. House of Representatives.
    (5)	 Testimony of Peter Maggiore, Commission on Assessments and Reviews, before the Subcommittee on Water Resources and
         Environment, Committee on Transportation and Infrastructure, U.S. House of Representatives.


                                                                  2

     include outcomes. GAO also reported that the Office of Management and Budget
     reviewed 10 grant programs and found that eight did not demonstrate results.

     GAO, EPA OIG, and others testifying recommended the following additional steps that
     OARM should take to enhance grant results management:

          1.	 Develop outcome-based goals and measures for grant programs and demonstrate
              the impacts of programs on human health and the environment.
          2.	 Require grantees to submit work plans describing how grantees would achieve
              measurable environmental results, including methods for measuring the
              environmental results of funded projects or programs.
          3.	 Develop a process for evaluating qualifications of investigators and institutions
              seeking grants.
          4.	 Train both EPA personnel and grantees on how to implement EPA’s January 2005
              grant results policy (described below) and how to better cooperate with each
              other.

EPA Took Actions to Better Demonstrate Results
     In its testimony, OARM described its plans to solve the problems raised during the
     testimony. OARM said it would encourage strong senior leadership, effective
     communication, and enforcement of new grants policies and procedures through internal
     reviews and performance evaluations. OARM also noted a forthcoming policy that it
     believed would help solve grant management problems:

     	   EPA Order 5700.7: Environmental Results under EPA Assistance Agreements
          (Results Policy), effective January 1, 2005: This established EPA’s policy for
          addressing environmental results under EPA assistance agreements, including grants
          and cooperative agreements. The policy required program offices that administer
          grants to (1) link proposed grants to EPA strategic goals and Government
          Performance and Results Act (GPRA) plans; (2) ensure that grantee plans and reports
          address outputs and outcomes; and (3) consider how results contribute to EPA goals
          and objectives.

     EPA subsequently issued a second policy designed to improve the way it evaluated
     potential grantees:

     	   EPA Order 5700.8: EPA Policy on Assessing Capabilities of Nonprofit
          Applicants for Managing Assistance Awards (Pre-Award Policy), effective
          March 31, 2005: This established internal controls for determining the capability of
          nonprofit organizations applying for EPA assistance agreements to carry out planned
          activities. This policy also enhanced post-award oversight by requiring EPA grants
          officials to take appropriate remedies against nonprofit grant recipients who fail to
          comply with the terms and conditions of the grants.



                                              3

Purpose of This Evaluation

          We conducted this evaluation to address recurrent congressional concerns about how
          effectively the results of EPA grants contribute to achieving the Agency’s goals. We
          specifically sought to determine: “how do EPA grant results policies compare with
          techniques used in leading nongovernmental organizations?”

Scope and Methodology

          To answer the question listed above, we interviewed EPA officials to determine how the
          Agency responded to the issues raised during congressional testimony. We compared
          EPA policies and practices with the techniques used by six leading nongovernmental
          organizations. We chose nongovernmental organizations for assessment based on the
          recommendations of other organizations.2 We based our sample on organizations’
          familiarity with funding environmental projects, and their interest in measuring the
          results of their funding activities. We limited the scope of this project to six
          organizations, ranging from a small, nonprofit venture-philanthropy fund started in 2001
          to a large, multi-billion dollar foundation started in 1930. We assessed how these
          organizations demonstrated grant and investment results by searching printed materials
          supplied by the organizations (e.g., annual reports), surveying information posted on
          organizational Web sites, and conducting telephone interviews with individuals
          responsible for monitoring grant results.

          To determine the practicability of adapting these organizations’ practices to EPA’s grant
          management process, we met with EPA officials and discussed the feasibility of
          implementing suggested practices. We noted that EPA may be more limited in its ability
          to control grant requirements than nongovernmental organizations, especially with the
          grant funds given to State, local, and tribal governments each year (an average of 88
          percent).

          We performed our field work in February and March of 2005. We conducted our
          evaluation in accordance with Government Auditing Standards issued by the Comptroller
          General of the United States.




2
  This method, “snowball sampling,” relies on previously identified members of a group to identify other members of the population. As newly
identified members name others, the sample snowballs in size. (Fink, Arlene. 1995. How to Sample in Surveys. Thousand Oaks, Calif.: Sage
Publications. P. 70)


                                                                      4

         Comparison of EPA and Nongovernmental
                 Organization Practices

Testimony Response
      EPA took actions intended to solve the problems raised in the congressional testimony by
      issuing the Results and Pre-Award Policies, and taking other actions described below.
      We found that nongovernmental organizations used similar techniques to ensure that their
      grantees contributed to organizational goals.

      We summarized both the actions EPA took in response to the congressional testimony, as
      well as practices used by a sample of nongovernmental organizations. We compared
      EPA and nongovernmental organizations’ practices and offered suggestions for EPA,
      where applicable.

Testimony         Goals: Develop goals and measures for all grant programs that are outcome-
Suggestion 1      based and demonstrate the impacts of programs on human health and the
                  environment.

EPA’s Actions     EPA outlines program goals in its annual GPRA plan. The Results Policy requires
                  program offices that administer grants to (1) link proposed grants to EPA strategic
                  goals and GPRA plans, (2) ensure that grantees address outputs and outcomes in
                  plans and reports, and (3) consider how results contribute to EPA goals and
                  objectives. The Results Policy requires each program office to determine
                  “significant results” to which grantees should contribute.

Nongovernmental   Each of the organizations we assessed described clear organizational goals. Three
Organization      organizations required that grant applications tier to organizational goals in order to
Practices         receive approval. One organization emphasized logic modeling in grant
                  applications to demonstrate that applicants considered connections between inputs,
                  planned program activities, anticipated outputs, and anticipated outcomes.

OIG Assessment    EPA and nongovernmental organizations both developed policies to address this
                  issue. In order to ensure that grantees clearly understand how to demonstrate
                  results, we suggest that EPA adopt the additional technique of providing sample
                  logic models that lead applicants toward established program goals.




                                                 5

Testimony         Methods and Work Plans: Require grantees to submit work plans describing
Suggestion 2      how grantees would achieve measurable environmental results, including
                  methods for measuring the environmental results of the funded projects or
                  programs.

EPA’s Actions     The Results Policy requires program offices that administer grants to ensure that
                  grantees addressed outputs and outcomes in grant plans. EPA provided
                  training/workshops in Headquarters and in Regions on implementing the Results
                  Policy. OARM ultimately expected program offices to provide their own program-
                  specific training on their respective environmental outcomes. If grantees do not
                  achieve their expected outcomes, the Results Policy required them to provide
                  reasons they did not succeed. OARM said that training associated with
                  implementing the Results Policy would focus on carefully negotiating grantee work
                  plans – including ensuring that grantees use appropriate methods to assess
                  outcomes.

Nongovernmental   The organizations we assessed required a range of levels of detail in work plans or
Organization      for agreed-upon projects. All organizations required recipients and/or applicants to
Practices         provide anticipated results. In some cases, organizations asked for basic
                  anticipated outcomes and performance measures. Other organizations required
                  more detail about desired results and performance measurement systems. They
                  offered specific directions and examples about how applicants should outline
                  potential results in grant applications, or worked with grantees to develop
                  appropriate results and measurement systems. One organization specified that its
                  recipients must engage in performance measurement throughout the project, or
                  face consideration as “in breach of the terms” of the grant or loan. This
                  organization developed a quarterly, forced-ranking system for evaluating investment
                  results on the basis of their current levels of success as defined through their
                  performance metrics.

OIG Assessment    Both EPA and nongovernmental organizations required grantees to demonstrate
                  their expected outcomes, and report on their success in work plans. In order to
                  ensure that EPA’s actions address this issue, we suggest that EPA track
                  implementation of the Results Policy to ensure that its implementation corrects the
                  problems raised in the congressional testimony.




                                                6

Testimony         Grantee Qualifications: Develop a process for evaluating qualifications of
Suggestion 3      investigators and institutions seeking grants.

EPA’s Actions     EPA required grantees to include grant applicant qualifications in work-plans for the
                  principal investigator and the project manager. EPA said that the Pre-Award Policy
                  required using the Grantee Compliance Assistance Initiative Database to conduct
                  pre-award audits because the database includes results of prior grantee reviews.
                  The database included results of programmatic and administrative reviews. EPA
                  staff validated data quarterly, and EPA relayed validation results to relevant national
                  program managers to indicate areas for improvement. Program offices would
                  evaluate grantee past performance using the results contained in the database.

Nongovernmental   One organization evaluated applicants’ qualifications when deciding to issue a
Organization      grant. Before the organization made a grant request or program-related
Practices         investment, the organization advised applicants to produce letters of inquiry
                  describing the qualifications of those engaged in the project. After receiving the
                  letters, organization staff members asked grants seekers to submit formal proposals
                  that should include the names and curricula vitae of those engaged in the project.
                  They also asked applicants to recount accomplishments under current or previous
                  grants, and specifically asked for references to benchmarks provided in previous
                  proposals.

OIG Assessment    Both EPA and one nongovernmental organization required grant applicants to
                  report on the qualifications of its key grant staff. In order to ensure that EPA’s
                  actions address this issue, we suggest that EPA track implementation of the Pre-
                  Award Policy to ensure that its implementation corrects the problems raised in the
                  congressional testimony.




                                                 7

Testimony         Training: Train both EPA personnel and grantees on how to implement the
Suggestion 4      January 2005 policy and how to better cooperate with each other.

EPA’s Actions     EPA provided training/workshops in Headquarters and in the Regions on
                  implementing the Results Policy. EPA anticipated that grant programs would
                  provide their own program-specific training on their respective outcomes. For
                  example, the Office of Water trained its project officers on measures grantees
                  needed to address in order to fulfill the Office’s responsibilities under GPRA. The
                  Office of Water started preparing an online course that includes a section on
                  environmental results. EPA planned to make each program office aware of other
                  offices’ activities so they could borrow/benefit from each other. EPA also planned a
                  manager certification course where managers must maintain their certification in
                  order to sign off on grant allocations. These courses would complement basic
                  training that provides skills such as developing and using logic models.

                  EPA provided online guidance for grant seekers.

Nongovernmental   The organizations we assessed used three types of techniques for training and
Organization      providing information to help grantees with results reporting:
Practices
                  In person: One organization regularly convened program officers and grantees
                  working on similar problems to compare strategies and advance learning, and
                  supported grantee travel to observe each other’s work. Two organizations worked
                  with grantees to ensure that they chose appropriate goals and measures.

                  On paper: Two organizations provided paper guidance for applying for and
                  reporting on grants. One of these organizations included a list of “Answers to
                  Frequently Asked Questions” that addressed common concerns potential grantees
                  had about requirements.

                  On the Internet: Two organizations created, or planned to create, Web sites for the
                  exchange of ideas. One planned to provide an evaluation library with basic profiles
                  on all grants as well as information about how grantees used adaptive management
                  techniques. They hoped to provide message boards so that grantees could ask
                  and answer each other’s questions about evaluating grant results.

OIG Assessment    Both EPA and nongovernmental organizations provided organizational staff and
                  grantees resources in person, on paper, and on the Internet. In order to provide
                  clear information about reporting results, we suggest that EPA consider providing
                  an additional online resource for grantees that provides training, examples, and a
                  question and answer bulletin board, as recommended by the Office of Water. This
                  one-stop resource could provide grantees with extensive information about how to
                  meet results reporting requirements. EPA could accomplish this through a central,
                  government grants Web site such as www.grants.gov. This resource could provide
                  “tips” that users could search for according to grant type, dollar amount, grant goals,
                  and other characteristics.




                                                 8

Additional Considerations
          During our evaluation we noted two additional techniques used by nongovernmental
          organizations that the congressional testimony did not specify. The first awards grants to
          those recipients with the best chance of success. EPA has considered this technique in its
          Pre-Award Policy. The second technique retrospectively evaluates previous grants.
          While EPA does not currently undertake retroactive grant results evaluations, it might
          consider doing so.

          Considering Past Performance in Awarding Future Grants

          Nongovernmental organizations looked at past performance to make decisions about
          future grants. One organization asked applicants to recount accomplishments under
          current or previous grants, and specifically asked for references to benchmarks provided
          in previous proposals. Another organization surveyed its grant recipients to identify
          areas for improvement in demonstrating outcome-oriented results from its grant
          programs. One organization intended to use the results gleaned from a 30-year
          retrospective evaluation to target future grants toward the most successful techniques or
          subjects, as appropriate.

          EPA created the Grantee Compliance Assistance Initiative Database, organized by
          grantee, to house the results of EPA’s monitoring. This database defined trends by type
          of grantee based on findings or issues addressed in oversight reviews. EPA also used the
          database to perform pre-award audits because the database included results from prior
          grantee reviews. Database users checked a box to indicate whether they addressed
          environmental results, and users provided attachments explaining their responses. Users
          also completed corrective action plans for grants that did not adequately address database
          components like environmental results. EPA planned to periodically analyze trends in
          Grantee Compliance Assistance Initiative Database results, and EPA planned to relay
          results to relevant national program managers to indicate areas for improvement. EPA’s
          Pre-Award Policy required grant program offices to verify that past grantees met
          requirements before issuing them new grants.

          EPA OIG previously reported on grant competition and strongly recommended using a
          competitive process for awarding discretionary grants.3 Therefore, EPA could include a
          grantee's past performance or ability to manage grant funds as a ranking criterion when
          competing discretionary grants and selecting successful applicants. We urge EPA to
          track implementation of the Pre-Award Policy to ensure that program managers award
          grant dollars to the most capable sources.




3
  See EPA OIG Audit Report: EPA Needs to Compete More Assistance Agreements, Report No. 2005-P-00014, March 31, 2005
(http://www.epa.gov/oig/reports/2005/20050331-2005-P-00014.pdf).


                                                                9

    Retrospective Evaluation

    Two nongovernmental organizations we assessed hired independent contractors to
    conduct retrospective evaluations of grant projects. One organization conducted a project
    evaluation covering a number of long-term grants it issued over the past 30 years. They
    intended to use the results gleaned from these evaluations to target future grants toward
    the most successful techniques or subjects, as appropriate. Another organization
    commissioned an independent group to survey its current grantees and unfunded grant
    seekers.

    EPA did not have plans to conduct a retrospective evaluation. An OARM official said
    that because EPA just recently began focusing on outcomes, many previous grants might
    not demonstrate outcome-based results. The official said that EPA would consider taking
    a retrospective look at grant results.

    We believe that a retrospective evaluation of a sample of EPA grant results would
    provide the Agency with valuable information about how grant dollars contributed in the
    past to environmental and human health improvements. EPA could apply methods and
    results from retrospectively assessing completed grant projects to recently completed or
    ongoing grants. EPA could report the results to the public.

Conclusions

    EPA developed policies and procedures designed to improve the Agency’s ability to
    demonstrate grant results. We found the practices required by EPA’s policies generally
    consistent with practices of leading nongovernmental organizations that fund
    environmental projects and emphasize grantee performance measurement. We also
    found that nongovernmental organizations developed additional practices that EPA could
    adopt when implementing corrective steps to improve the Agency’s grants effectiveness.
    Specifically, we suggest that EPA consider both providing sample logic models to grant
    applicants that demonstrate how their activities connect with EPA goals, and also
    developing an online grants resource Web site. We also believe that additional,
    retrospective evaluation work could help EPA, Congress, and the public determine what
    EPA has achieved with its grant dollars in the past. These steps could help EPA
    surmount the challenge of demonstrating the environmental and human health impact of
    the Agency’s grant-making activities.

Summary of Suggestions and EPA Response
       	   We suggest that EPA track implementation of the Results and Pre-Award Policies
            to correct the problems raised in congressional testimony by establishing methods
            to measure environmental results in grantee work plans, assessing grantee
            qualifications, and awarding grant dollars to successful former grantees.



                                            10

   To ensure that grantees clearly understand how to demonstrate results, we suggest
    that EPA adopt the additional technique of providing sample logic models that
    lead applicants toward established program goals.

   To provide clear information about reporting results, we suggest that EPA
    consider providing an additional online resource for grantees that provides
    training, examples, and a question and answer bulletin board, as recommended by
    the Office of Water. This one-stop resource could provide grantees with
    extensive information about how to meet results reporting requirements. EPA
    could accomplish this through a central, government grants Web site such as
    www.grants.gov. This resource could provide “tips” that users could search for
    according to grant type, dollar amount, grant goals, and other characteristics.

   To ensure that grant dollars fund projects with a high chance of success, EPA
    could include grantees’ past performance as a ranking criterion when competing
    discretionary grants and selecting successful applicants.

   We believe that a retrospective evaluation of a sample of EPA grant results would
    provide the Agency with valuable information about how its past grant dollars
    contributed to environmental and human health improvements. EPA could report
    this information to the public.

In its comments on the draft report, EPA agreed with the first four suggestions, but
suggested an alternate time frame for the fifth suggestion on conducting a
retrospective evaluation. EPA recommended that conducting the evaluation in 3 or 4
years, once the results policy has been implemented, would provide more information
about grant results than an evaluation conducted now. In the interim, EPA plans to
work with the Office of the Administrator to do a pilot review of work products
obtained from environmental education grants.




                                    11

                                                                                                         Appendix A
                Process Flow for Competitive Grants
                 Program office               Guidance on
                 issues request                 submitting
Pre-Award                                                                       Applicant
                   for proposals           proposals provided ~3 months
                                                                                 submits
                    on EPA and              through EPA and
                                                                                proposal
                  fedgrants.gov             government web
                     web sites                    sites



                                                          OARM conducts
                                                        administrative review

                    Program office
Grantee        conducts"Pre-Award                                                                OARM
Selection      Review" of technical                                                         conducts legal
                and programmatic                            Program office
                                           2-3 months                      2 months               and
               elements of proposal                        submits funding
                                                                                             administrative
                  (this may involve                      recommendation to
                                                                                              review, and
                  negotiating grant                            OARM
                                                                                            issues grant to
               terms with applicants)                                                           recipient




Grant Project                                Project officer
                                                                    Grantee provides
Implementation           Grantee              (in program
                                                                    periodic progress
                      begins project         office) trained
                                                                         reports
                                             and certified

                                                                                              OARM conducts
                                                                     Program office                baseline
                                                                      reviews grant            monitoring, and
                                                                    progress reports,          on-site or desk
           2-3 years (in most cases)                                  and monitors                review of
                                                                        technical            recipients (results
                                                                       performance              entered into
                                                                                                 database)




                                                                                                   OARM ensures
                                                                                                 program office is
                                                           Grantee            Program
                         Grantee          3 months                                              satisfied with final
                                                         submits final     office reviews
Grant Close-out         completes
                                                        technical and      final technical
                                                                                                  technical report,
                          project                                                               and ensures other
                                                        other reports           report
                                                                                                 final reports were
                                                                                                submitted properly

 Red boxes indicate        Blue boxes
    oversight or         indicate other
  negotiation steps           steps



                                                           12

                                                                                 Appendix B

                     Agency Response to Draft Report

                                        May 23, 2005

MEMORANDUM

SUBJECT:	 Response to Draft Evaluation Report: “EPA’s Efforts to Demonstrate Grant
          Results Mirror Nongovernmental Organizations’ Practices”

FROM:	        Luis A. Luna
              Assistant Administrator
              Office of Administration and Resources Management

TO:	          Jeffrey Harris
              Director, Cross Media Issues
              Office of the Inspector General

        This provides the response of the Office of Administration and Resources Management
(OARM) to the Office of Inspector General (OIG) draft evaluation report (Report) entitled
“EPA’s Efforts to Demonstrate Grant Results Mirror Nongovernmental Organizations’
Practices” (Report No. 2005-000847, dated April 14, 2005).

        The purpose of the Report is to determine how EPA’s grant results policies compare with
the techniques used in leading nongovernmental organizations. We are pleased with the Report’s
conclusion that the practices required by EPA’s new policies on Grant Environmental Results
(EPA Order 5700.7) and Pre-Award Reviews of non-profit organizations (EPA Order 5700.8)
are generally consistent with the practices of leading nongovernmental organizations that fund
environmental projects and emphasize grantee performance measurement. The Report also
contains suggestions on nongovernmental organization techniques that EPA could consider to
augment the new policies. OARM’s response to these suggestions is as follows.

C      Suggestion 1: Track Implementation of the Results and Pre-Award Policies to ensure that
       EPA staff and grantees follow the policies and better demonstrate grant results.

       OARM Response: We agree with this suggestion. The Results Order contemplates that
       Office of Grants and Debarment (OGD) will assess compliance through its
       Comprehensive Grants Management Reviews. In addition, we have convened a work
       group to examine how to improve the Agency’s data systems for collecting/reporting
       grant results information.




                                                13

C	   Suggestion 2: Adopt the technique of providing sample logic models that lead grant
     applicants toward established environmental and human health improvement goals.

     OARM Response: We agree with this suggestion and are in the process of putting on the
     Internet a grantee tutorial on environmental results that will contain sample logic models.


C	   Suggestion 3: Consider providing an online resource for grantees that provides training,
     examples, and a question and answer bulletin board, as recommended by the Office of
     Water. This one-stop resource could provide grantees with extensive information about
     how to meet results reporting requirements.

     OARM Response: We understand that the Office of Water recommended this approach
     for training EPA project officers and not grantees. Consistent with this suggestion, we
     will be providing training to grantees in three phases - the grantee tutorial noted above, a
     nonprofit applicant forum in October, and online training in 2006.


C	   Suggestion 4: Include grantees’ past performance as a ranking criterion when competing
     discretionary grants and selecting successful applicants.

     OARM Response: We agree with this suggestion. Section 6c. of the Results Order
     requires, effective January 1, 2006, that all competitive funding announcements include
     ranking criteria for evaluating an applicant’s past performance in reporting on outputs
     and outcomes.


C	   Suggestion 5: Conduct a retrospective evaluation of a sample of EPA grant results to
     provide the Agency with valuable information about how grant dollars contributed in the
     past to environmental and human health improvements.

     OARM Response: OARM disagrees with this suggestion. Since many past grants have
     focused primarily on outputs rather than outcomes, we believe that a retrospective
     evaluation would produce limited useful information and not allow the Agency to draw
     meaningful conclusions. A better approach would be to monitor compliance with the
     Results Order, and provide training to project officers and grant applicants, with a view to
     conducting a retrospective evaluation three or four years from now. In the interim, we
     plan to work with the Office of the Administrator to do a pilot review of work products
     obtained from environmental education grants.




                                              14

        Thank you for the opportunity to comment on the Report. Please be assured that OARM
and EPA’s program offices are committed to ensuring that the Results and Pre-Award policies
are efficiently and effectively implemented. If you have any questions about these comments,
please contact Howard Corcoran of OGD at (202) 564-1903.

cc: Dave O’Connor
    Senior Resource Officials
    Junior Resource Officials
    Grants Management Officers
    Peggy Anthony
    Howard Corcoran
    Richard Kuhlman




                                             15

                                                                                Appendix C

                                    Distribution

EPA Headquarters
Office of the Administrator
Assistant Administrator, Office of Administration and Resources Management
Director, Office of Grants and Debarment
Agency Followup Official (the CFO)
Agency Audit Followup Coordinator
General Counsel
Audit Followup Coordinator, Office of the Administrator
Audit Followup Coordinator, Office of Administration and Resources Management
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Inspector General




                                           16

